                                         NATIONAL SCIENCE FOUNDATION
                                         OFFICE OF INSPECTOR GENERAL
                                           OFFICE OF INVESTIGATIONS

                                       CLOSEOUT MEMORANDUM

Case Number: A02070038                                                       Page 1of 1


     In July 2002, the complainant1 alleged a former graduate student (the subject2) a t
     the University committed intellectual theft when the subject incorporated some of
     the complainant's company's proprietary ideas into his thesis. The complainant
     informed us the University had conducted a n Inquiry and was currently conducting
     a n Investigation.

     We asked the University for a copy of its Inquiry Report and supplementary
     documentation. That documentation shows NASA, not NSF, provided the subject's
     funding. Accordingly, this case is closed, and we told NASA OIG about the
     allegation.




         1   (footnote redacted).
         2   (footnote redacted).


                        Investigator      Attorney          Supervisor                 A1GI

 Sign / date

                                                                         NSF OIG Form 2 (11102)
